Office of Material Loss Reviews
Report No. MLR-10-017


Material Loss Review of First Piedmont
Bank, Winder, Georgia




                                  February 2010
                                      Executive Summary

                                      Material Loss Review of First Piedmont Bank,
                                      Winder, Georgia
                                                                                       Report No. MLR-10-017
                                                                                               February 2010

Why We Did The Audit
The FDIC Office of Inspector General (OIG) contracted with KPMG LLP (KPMG) to conduct a material
loss review of First Piedmont Bank (FPB), Winder, Georgia.

On July 17, 2009, the Georgia Department of Banking and Finance (DBF) closed FPB and named the
FDIC as receiver. On August 12, 2009, the FDIC notified the OIG that FPB’s total assets at closing were
$115.1 million and the estimated loss to the Deposit Insurance Fund (DIF) was $29.4 million. As of
December 31, 2009, the estimated loss had increased to $32.2 million. The OIG was required by section
38(k) of the Federal Deposit Insurance (FDI) Act to conduct a material loss review of the failure of FPB,
and retained KPMG for this purpose.

The audit objectives were to (1) determine the causes of the financial institution’s failure and resulting
material loss to the DIF and (2) evaluate the FDIC’s supervision of the institution, including
implementation of the Prompt Corrective Action (PCA) provisions of section 38.


Background
FPB was chartered as a state nonmember bank on April 15, 1998. The bank’s operations were centered in
the northeastern quadrant of the Atlanta metropolitan area, with three offices in the Georgia counties of
Barrow and Walton. FPB had no holding company, subsidiaries, or affiliates.

FPB’s assets were concentrated in residential and commercial acquisition, development and construction
(ADC) loans. The majority of the bank’s ADC exposure consisted of residential developments. Funding
sources consisted primarily of time deposits, and FPB had less than a 6-percent share of the deposit
market in the combined two-county area.


Audit Results
Causes of Failure and Material Loss

FPB’s failure can be attributed to a high ADC loan concentration, weaknesses in loan underwriting and
credit administration practices, and poor management and Board of Directors (Board) oversight. In the
final FDIC Report of Examination, dated November 4, 2008, examiners noted that management’s
policies, procedures and risk mitigation efforts did not effectively address the changing market conditions
and that management had failed to adequately address concerns and risks that examiners identified at the
prior examination. The examination report further indicated that ineffective limits on the ADC loan
concentration, coupled with underwriting weaknesses, unnecessarily exposed the bank to unacceptable
levels of risk associated with market fluctuations in the regional Atlanta housing industry, which had
experienced a sharp downturn. The extent of problem loans in the ADC portfolio led to the deterioration
of the bank’s asset quality and increased Other Real Estate (ORE) levels which, in conjunction with other
operating losses, eliminated earnings, eroded capital, and threatened the viability of FPB.




                                  To view the full report, go to www.fdicig.gov
   Executive Summary
                                      Material Loss Review of First Piedmont Bank,
                                      Winder, Georgia
                                                                                       Report No. MLR-10-017
                                                                                               February 2010

The FDIC’s Supervision of FPB

Through its supervisory efforts, the FDIC identified risks in FPB’s operations and brought these risks to
the attention of the institution’s Board and management through regular discussions and correspondence,
examination reports, a visitation, and informal and formal supervisory actions. Key areas of risk
identified by examiners included ADC loan concentrations, loan underwriting, and credit administration
functions. As reflected in the bank’s safety and soundness examination ratings, FPB was considered to be
fundamentally sound until the December 2007 examination.

The Board’s decision to pursue rapid asset growth in ADC lending created a strategic risk that FPB had a
responsibility to properly monitor and control. Onsite examinations and offsite reviews identified the
increasing ADC concentration and appropriately identified weaknesses; however, the ultimate impact of
management’s inability to manage and monitor its ADC loan concentration was not fully exposed until
the local real estate market slowed. Further, the inherent risks represented by the ADC lending
concentration and the consequent vulnerability of the bank to an economic downturn, particularly in the
local real estate market, were not reflected in the financial ratios and other metrics used by the examiners.
Therefore, taking into consideration that institutions with high ADC loan concentrations are especially
vulnerable to economic downturns, earlier and greater supervisory attention to the risks associated with
FPB’s aggressive growth may have been prudent.

Based on the supervisory actions taken, the FDIC properly implemented applicable PCA provisions of
section 38. However, capital levels turned out to be a lagging indicator of the institution’s financial well-
being. Other factors, including earnings, asset quality, and management, identified and addressed in
earlier examinations, were better indicators that the bank’s viability was in question.

Management Response

After we issued our draft report, we met with management officials to further discuss our results.
Management provided additional information for our consideration, and we revised our report to reflect
this information, as appropriate. On February 12, 2010, the Director, Division of Supervision and
Consumer Protection (DSC), provided a written response to the draft report. That response is provided in
its entirety on page II-2 of this report.

DSC reiterated the OIG’s conclusions regarding the causes of FPB’s failure and the FDIC’s supervision
of the bank. DSC stated that it issued Interagency Guidance on CRE Monitoring in 2006 and a Financial
Institution Letter to banks on Managing Commercial Real Estate Concentrations in a Challenging
Environment in 2008 that re-emphasized the importance of robust credit risk-management practices for
institutions with concentrated CRE exposures and set forth broad supervisory expectations.




                                  To view the full report, go to www.fdicig.gov
Federal Deposit Insurance Corporation                                                Office of Material Loss Reviews
3501 Fairfax Drive, Arlington, VA 22226                                                   Office of Inspector General




DATE:                                     February 12, 2010

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection


                                          /Signed/
FROM:                                     Stephen M. Beard
                                          Assistant Inspector General for Material Loss Reviews

SUBJECT:                                  Material Loss Review of First Piedmont Bank, Winder, Georgia
                                          (Report No. MLR-10-017)


The subject final report is provided for your information and use. Please refer to the Executive
Summary, included in the report, for the overall audit results. The report did not contain
recommendations, thus a response was not required. However, the Division of Supervision and
Consumer Protection provided a written response on February 12, 2010. We incorporated the
information into Part II of the final report.

If you have questions concerning the report, please contact me at (703) 562-6352 or Mike
Lombardi, Audit Manager, at (703) 562-6328. We appreciate the courtesies extended to the
audit staff.

Attachment

cc: Doreen R. Eberley, Acting Regional Director, DSC
    Christopher E. Drown, Chief, Office of Internal Control and Review, DSC
    James H. Angel, Jr., Director, OERM
                           Table of Contents

Part I

   Report by KPMG LLP                                           I-1
   Material Loss Review, First Piedmont Bank, Winder, Georgia

Part II

   OIG Evaluation of Management Response                        II-1

   Corporation Comments                                         II-2
      Part I

Report by KPMG LLP
              Material Loss Review
              First Piedmont Bank
                Winder, Georgia




Prepared for the
Federal Deposit Insurance Corporation
Office of Inspector General




KPMG LLP
2001 M Street, NW
Washington, DC
                            Table of Contents



Executive Summary                                                         I-1

Background                                                                I-3

Causes of Failure and Material Loss                                       I-4
  Concentration in ADC Lending                                            I-4
  Loan Underwriting and Credit Administration                             I-7
  Board and Management Oversight                                          I-8

The FDIC’s Supervision of FPB                                             I-9
  Supervisory History                                                   I-10
  Supervisory Response to Key Risks                                     I-11
  Supervisory Response to ADC Concentration, Loan Underwriting, and Credit
  Administration                                                        I-11
  Supervisory Response to Board and Management Oversight                I-16
  Implementation of PCA                                                 I-16

Appendices                                                               I-19
 1. Objectives, Scope, and Methodology                                   I-19
 2. Glossary of Terms                                                    I-22
 3. Acronyms                                                             I-24

Tables
 1. Financial Information for FPB                                          I-3
 2. FPB’s Examination History from 2003 to 2008                          I-10
 3. Supervisory Responses to Key Risks for FPB                           I-11
 4. Summary of Capitalization Categories for FPB                         I-17

Figures
  1. ADC Loans as a Percentage of Total Capital Compared to Peer Group     I-5
  2. Summary of FPB’s Loan Mix                                             I-6
  3. FPB’s Percentage of Past Due Loans Compared to Peer Group           I-15
                            KPMG LLP

                            2001 M Street, NW
                            Washington, DC 20036



February 12, 2010

EXECUTIVE SUMARY

Stephen M. Beard
Assistant Inspector General for Material Loss Reviews
Federal Deposit Insurance Corporation
3501 North Fairfax Drive
Arlington, VA 22226

RE:    Transmittal of Results for the Material Loss Review Report for First
       Piedmont Bank, Winder, Georgia

Dear Mr. Beard:

This letter is to acknowledge delivery of our performance audit report on the results of
the Material Loss Review for First Piedmont Bank (FPB), Winder, Georgia, in
accordance with Task Assignment Number 09-10, dated August 22, 2009. The objectives
of this performance audit were to (1) determine the causes of FPB’s failure and the
resulting material loss to the Deposit Insurance Fund (DIF) and (2) evaluate the FDIC’s
supervision of FPB, including the FDIC’s implementation of the Prompt Corrective
Action (PCA) provisions of section 38.
Causes of Failure
FPB’s failure can be attributed to high Acquisition, Development and Construction
(ADC) loan concentrations, weaknesses in loan underwriting and credit administration
practices, and poor management and Board of Directors (Board) oversight. The Board’s
decision to pursue rapid asset growth in ADC lending created a strategic risk that FPB
had a responsibility to properly monitor and control. However, ineffective limits on the
ADC concentration, coupled with underwriting weaknesses and a failure to adequately
address examiners’ concerns, exposed the bank to unacceptable levels of risk associated
with market fluctuations in the regional Atlanta housing industry, which started
experiencing a downturn in 2007. The level of problem loans in the ADC-concentrated
loan portfolio was responsible for the deterioration of the bank’s asset quality, which by
2008 eliminated earnings and rapidly eroded capital.
Evaluation of Supervision
Through its supervisory efforts, the FDIC identified key risks in FPB’s management
practices and operations and brought these risks to the attention of the institution’s Board
and management team through regular discussions and correspondence, examination
reports, a visitation, and informal and formal supervisory actions. Regulators conducted
one visitation in June 2008, and 10 on-site examinations beginning in 1998.




                                                             I-1
                             KPMG LLP, a U.S. limited liability partnership, is the U.S.
                             member firm of KPMG International, a Swiss cooperative.
From 1998 through 2006, FPB’s Risk Management composite rating fluctuated between
a “1” and a “2”, and the institution’s safety and soundness was regarded as satisfactory by
examiners. However, the ultimate impact of management’s inability to manage and
monitor its ADC concentration was not fully exposed until the local real estate market
slowed. Taking into consideration that institutions with high ADC concentrations are
especially vulnerable to economic downturns, earlier and greater supervisory attention to
FPB’s lending practices and the risks associated with the bank’s growth strategy may
have been prudent.

Prompt Corrective Action

The FDIC followed PCA guidance, but this had little or no impact on minimizing the loss
to the DIF. Capital levels turned out to be a lagging indicator of the institution’s financial
condition. When FPB entered into a Memorandum of Understanding that required
increased capital to mitigate loan losses, the bank was still considered Well Capitalized
for PCA purposes. By the time a PCA Capital Directive was issued, FPB was at serious
risk of failure.

We conducted our performance audit in accordance with Generally Accepted
Government Auditing Standards (GAGAS). Those standards require that we plan and
perform the performance audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

The information included in this draft report was obtained during our fieldwork, which
occurred during the period from September 22, 2009 through January 8, 2010.

Very truly yours,




                                             I-2
Background

On July 17, 2009, the Georgia Department of Banking and Finance (DBF) closed First
Piedmont Bank (FPB) and named the FDIC as receiver. On August 12, 2009, the FDIC
notified the Office of Inspector General (OIG) that FPB’s total assets at closing were
$115.1 million and the estimated loss to the Deposit Insurance Fund (DIF) was $29.4
million. The OIG was required by section 38(k) of the Federal Deposit Insurance (FDI)
Act to conduct a material loss review of the failure of FPB, and retained KPMG for this
purpose.1

FPB was chartered as a state nonmember bank on April 15, 1998. FPB’s operations were
centered in the northeastern quadrant of the Atlanta metropolitan area. Its main office was
located in Winder, Barrow County, Georgia. As of June 30, 2008, the bank operated three
offices in the Georgia counties of Barrow and Walton. Approximately 90 percent of the
institution’s total deposits were concentrated in the main office. All offices operated in
competitive deposit markets and FPB had less than a 6 percent share of the deposit
market in the combined two-county area. FPB had no holding company, subsidiaries, or
affiliates.

FPB’s assets were concentrated in residential and commercial Acquisition, Development
and Construction (ADC) loans. The majority of the bank’s ADC exposure consisted of
residential developments. The institution’s loan portfolio did not contain any subprime
loans or non-traditional mortgage products. Funding sources consisted primarily of time
deposits.

Table 1 provides details on FPB’s financial condition as of December 2008, and for the
three preceding calendar years.

Table 1: Financial Information for FPB
                                            Dec-08            Dec-07          Dec-06         Dec-05
Total Assets ($000s)                    $122,806         $129,427      $113,875             $87,814
Total Loans ($000s)                      $83,618         $105,016       $91,975             $72,514
Total Deposits ($000s)                  $114,203         $114,777       $97,290             $74,832
Net Income (Loss) ($000s)                ($6,228)          $44           $1,387              $1,143
Source: Uniform Bank Performance Report (UBPR) for FPB, December 31, 2008.




1
 In conducting this performance audit and preparing this report, KPMG relied primarily on information
provided by the FDIC OIG and Division of Supervision and Consumer Protection (DSC). Appendix 1,
Objectives, Scope, and Methodology, describes in greater detail the procedures used by KPMG.




                                                  I-3
Causes of Failure and Material Loss

FPB’s failure can be attributed to a high ADC loan concentration, weaknesses in loan
underwriting and credit administration practices, and poor management and Board of
Directors (Board) oversight. In the final FDIC Report of Examination (ROE), dated
November 4, 2008, examiners noted that management’s policies, procedures and risk
mitigation efforts did not effectively address the changing market conditions and that
management had failed to adequately address concerns and risks identified by examiners
at the prior examination. The examination report further indicated that ineffective limits
on the ADC concentrations, coupled with underwriting weaknesses, unnecessarily
exposed the bank to unacceptable levels of risk associated with market fluctuations in the
regional Atlanta housing industry, which had experienced a sharp downturn. The level of
problem loans in the ADC portfolio was responsible for the deterioration of the bank’s
asset quality and increased Other Real Estate (ORE) levels which, in conjunction with
other operating losses, had eliminated earnings, eroded capital, and threatened the
viability of FPB.


Concentration in ADC Lending

Early in FPB’s history, asset concentration centered in ADC lending was identified by
examiners. In the October 1998 and November 1999 examinations, the bank’s ADC
concentration as a percent of Tier 1 Capital plus the Allowance for Loan and Lease
Losses (ALLL) was 73 percent and 152 percent, respectively. In the years that followed,
FPB continued to maintain a concentration in real estate development loans that were
primarily residential. As of March 31, 2001, these loans as a percent of Tier 1 Capital
plus the ALLL represented 149 percent of funded commitments and 216 percent of total
commitments.2 The April 2001 examination indicated that speculative construction loans
continued to comprise a major portion (44 percent) of the ADC portfolio. The report
stated that management should consider more conservative limitations on ADC loans as
well as limitations by types of loans, such as commercial or residential development,
commercial or residential construction, and commercial or residential speculative
construction.

By the July 2003 examination, the bank’s ADC concentration represented 239 percent of
Tier 1 Capital plus the ALLL. Figure 1 summarizes FPB’s ADC concentrations in
comparison to its peer group3 from 2004 to 2008. As illustrated, FPB’s volume of ADC
loans as a percentage of total capital increased each year from 2005 to 2008, and each
year was at least three times the percentage of its peer group.




2
 Report of Examination, April 16, 2001.
3
 The peer group for FPB is made up of all insured commercial banks having assets between $100 million
and $300 million in a metropolitan area that has three or more full service offices.


                                                 I-4
Figure 1: ADC Loans as a Percentage of Total Capital Compared to Peer Group

     700%

     600%

     500%

     400%

     300%

     200%

     100%

        0%
                  2004          2005           2006         2007    2008

                                         FPB      Peer Group

    Source: UBPR for FPB, December 31, 2008.

The January 2005 State examination noted that the total funded balance of loans extended
for ADC lending represented 357 percent of Tier 1 Capital plus the ALLL as of
November 30, 2004. Total committed ADC loans equaled 507 percent of Tier 1 Capital
plus the ALLL. The July 2006 examination reported that the ADC loan concentration was
monitored adequately, and that it represented approximately 396 percent of Tier 1 Capital
plus the ALLL as of June 30, 2006. Overall demand for real estate was high in the
Atlanta housing market at that time, and ADC lending in the region grew accordingly.4
As discussed in Financial Institution Letter (FIL) 104-2006 issued December 12, 2006,
titled, Concentrations in Commercial Real Estate Lending, Sound Risk Management
Practices (Interagency Guidelines), rising Commercial Real Estate (CRE) concentrations
could expose institutions to unanticipated earnings and capital volatility in the event of
adverse changes in the general CRE market. The December 2006 guidance states that
institutions potentially exposed to significant CRE concentration risk include those with
ADC representing 100 percent or more of total capital. Due to the risks associated with
CRE and ADC lending, regulators consider institutions with significant CRE and ADC
concentrations to be of greater supervisory concern.

Until 2007, there was a high demand for ADC lending in the Atlanta area as a result of
the growing population and robust economy.5 However, by mid-2007, the Atlanta real
estate market was beginning to show signs of deterioration. These conditions were
exacerbated by the collapse of the national subprime markets.6 CRE portfolios for
residential construction and development in the Atlanta area experienced an increase in
past due rates from 0.78 percent at the end of 2006 to 3.31 percent by December 31,
2007.7 The December 2007 State examination noted that the bank’s concentration in
4
  Atlanta Business Chronicle, “Banks at Risk”, April 6, 2006.
5
  Interview with officials of the DBF.
6
  Supervisory History Memorandum, January 2009.
7
  Atlanta Regional Risk Committee Summary Report, March 21, 2008.


                                                      I-5
ADC lending had increased to 773 percent as of November 2007. While the
concentration level in ADC lending was within the Board’s policy limits of 800 percent
of capital for total committed balances, the level was considered excessive as measured
against reasonable industry standards, particularly the December 2006 Interagency
Guidelines. The examination concluded that the Board and management had pursued an
industry concentration in ADC lending without fully mitigating the risk.

At the end of 2007, approximately 95 percent of FPB’s loan portfolio was in real estate.
The loan portfolio included significant concentrations of ADC and CRE loans. Figure 2
summarizes FPB’s distribution of total loans as of December 2008, and for the three
preceding calendar years.

Figure 2: Summary of FPB’s Loan Mix

                         70%
                         60%
      % of Total Loans




                         50%
                         40%
                         30%
                         20%
                         10%
                          0%
                                    2005           2006              2007           2008

                         Construction & Development (ADC)   CRE - Nonfarm/Nonresidential
                         Other Real Estate Loans            Non-Real Estate Loans

    Source: UBPR for FPB, December 31, 2008.

The December 2007 State examination indicated that the bank’s asset quality was
deficient. The downturn in the residential real estate market resulted in FPB’s classified
assets reaching critical levels at 153 percent of Tier 1 Capital plus the ALLL. A June
2008 visitation revealed that management had not taken the actions promised at the
previous State examination to address asset quality concerns. The economy continued to
deteriorate in 2008 given the significant excess of undeveloped home lots in the
metropolitan Atlanta area and sluggish home sales. As a result, real estate development
loans soured as builders were unable to repay them.8

As of September 30, 2008, funded ADC loans represented 582 percent of Tier 1 Capital
plus the ALLL. Total commitments represented 740 percent of Tier 1 Capital plus the
ALLL. The November 2008 examination determined that asset quality was critically
deficient and that problems were centered in ADC loans. The ROE indicated that
ineffective limits on the ADC concentration, coupled with underwriting weaknesses,

8
    Atlanta Business Chronicle, “Housing skips spring thaw”, June 12, 2008.


                                                               I-6
exposed the bank to high levels of risk associated with market fluctuations in the local
housing industry. The level of problem loans in the ADC portfolio was responsible for
the deterioration of the bank’s asset quality and increased ORE levels which, in
conjunction with other operating losses, eroded capital and therefore jeopardized FPB’s
viability.


Loan Underwriting and Credit Administration

During the January 2005 State examination, examiners noted that classifications
increased since the previous examination in 2003 but remained manageable at 23 percent
of capital. The examination report indicated that management appeared to be
appropriately monitoring the bank’s credit risk and that the identification of problem
loans appeared to be timely and accurate. The July 2006 examination noted that all
adverse classifications identified at the prior State examination were successfully
eliminated from the bank’s general ledger. No adversely classified assets were evident at
this examination.

In the December 2007 State ROE, examiners stated, “While the current condition of the
real estate market has had an impact on borrowers’ rapid financial demise, several
weaknesses in credit underwriting and administration were also evident during the
examination.” The examination noted that many of the loan write-ups exhibited
weaknesses such as outdated financial information, no global cash flow analysis, and the
lack of documentation in the file to document financial capacity. The examination report
indicated that the volume of adversely classified assets reflected an increase from the
previous examination. Adversely classified assets totaled $21 million and represented
152.5 percent of the bank’s Tier 1 Capital plus the ALLL.

The 2007 examination also reported that as of December 31, 2007, management had
identified an additional $704,000 in losses in the ADC segment of their portfolio, which
resulted in the ALLL being deficient by $1 million. The ROE indicated that at the time of
the examination, management was in the process of developing a methodology that
conformed to Financial Accounting Standard (FAS) 114 and FAS 5.9 After the examiners
performed their on-site review and prior to the completion of their examination,
management was able to construct and provide an adequate ALLL methodology.
Management made adjustments to the ALLL based on the new methodology that resulted
in an additional $1 million provision. This increased provision had a significant impact
on the bank’s earnings.

The June 2008 FDIC on-site visitation revealed that despite continued asset quality
deterioration, management had only provided $75,000 to the ALLL. Management
conceded during the visitation that the ALLL was underfunded; however, the extent of

9
  Accounting Standard Codification (ASC) Subtopics 450-20 (formerly Statement of Financial Accounting
Standard No. 5) and ASC 310-10-35 (formerly Statement of Financial Accounting Standard No. 114)
provide accounting guidance for loss contingencies on a pool basis and the impairment of loans on an
individual basis, respectively.


                                                 I-7
the underfunding was unknown due to management's failure to assess the overall quality
of the loan portfolio since the last State examination in December 2007. Operating losses
totaled $441,000 through June 17, 2008, and additional losses were deemed likely given
asset deterioration and an underfunded ALLL.

The November 2008 examination noted that capital was critically deficient and no longer
supported the risk profile of the bank. Loan losses, increasing ALLL provision expenses,
and continuing operating losses had exceeded earnings and were eroding capital. The
amount needed to restore capital to an adequate level appeared beyond the ability of the
Board and major stock holders.10 The examination noted that management had failed to
correct many of the 2007 examination deficiencies in regard to loan underwriting and
credit administration. These deficiencies included the lack of meaningful global cash
flow analyses on borrowers and limited financial analysis noted in the credit
memorandums. The 2008 examination report indicated that adversely classified assets
totaled 391 percent of Tier 1 Capital plus the ALLL. More than 80 percent of the
classifications were within the ADC portfolio.


Board and Management Oversight

FDIC examination results indicate that FPB’s Board and management failed to
adequately identify, measure, monitor and control emerging risks related to the ADC loan
concentration and effectively deal with the changing economic environment after 2007.
In addition, management failed to address examiners’ concerns from the December 2007
examination.

Identifying, Measuring, Monitoring and Controlling Risks

The July 2006, FDIC ROE described management and Board oversight as sound, based
upon the strong financial condition of the bank. Further, examiners pointed out that the
strong asset quality was indicative of management’s conservative investment and lending
philosophies. However, by December 2007, State examiners deemed management as less
than satisfactory, noting that the Board and management had pursued an industry
concentration in ADC lending without fully mitigating the risk. Examiners warned that if
the decline in the real estate market continued, additional deterioration in the bank’s asset
quality was likely given the bank’s asset concentration.

The November 2008 FDIC ROE noted that asset quality problems centered in the ADC
portfolio had resulted in material losses that threatened the viability of the institution.
Examiners indicated that the Board and management had failed to adequately identify,
measure, monitor, and control the growing risks in the bank. Further, examiners noted
that management’s policies, procedures, and risk mitigation efforts were ineffective in
coping with adverse changes in the real estate market. As a consequence, FPB’s financial
condition had deteriorated significantly. Examiners mentioned that the Board and


10
     Report of Examination, November 4, 2008.


                                                I-8
management needed to review risk identification, limits and mitigation strategies for
ADC concentrations.

Implementation of Examiner Recommendations

When the local real estate market reversed trends in 2007, management’s inability to run
the bank successfully under more adverse economic conditions became evident. In the
December 2007 examination, it was noted that the level of classified assets would require
a significant amount of monetary and staff resources as management worked to mitigate
losses. In addition, the ROE indicated that management should review policies and
procedures in regard to ADC lending and determine if any mitigating factors could be
taken to reduce the risks associated with this portfolio. Six months later, the June 19,
2008 on-site visitation revealed that management had not taken the action steps to resolve
concerns from the December 2007 State examination. Management did not commit
sufficient time or resources to address noted issues, in particular, the hiring of personnel
to work on resolving problem credits. Management also conceded during the visit that the
ALLL was underfunded and that the extent of the underfunding was unknown. The
November 2008 examination again indicated that management had not taken the
necessary actions to improve the bank’s financial condition based on the findings from
the December 2007 examination. During this examination, it was noted that
management’s resources were severely stretched by the volume and severity of issues
facing the institution.


The FDIC’s Supervision of FPB

Through its supervisory efforts, the FDIC identified risks in FPB’s operations and
brought these risks to the attention of the institution’s Board and management through
regular discussions and correspondence, examination reports, a visitation, and informal
and formal supervisory actions. Key areas of risk identified by examiners included ADC
loan concentrations, loan underwriting, and credit administration functions. As reflected
in the bank’s CAMELS11 ratings, FPB was considered to be fundamentally sound until
the December 2007 examination. The Board’s decision to pursue rapid asset growth in
ADC lending created a strategic risk that FPB had a responsibility to properly monitor
and control. On-site examinations and offsite reviews identified the increasing ADC
concentration and appropriately identified weaknesses; however, the ultimate impact of
management’s inability to manage and monitor its ADC concentration was not fully
exposed until the local real estate market slowed. Further, the inherent risks represented
by the ADC lending concentrations and the consequent vulnerability of the bank to an
economic downturn, particularly in the local real estate market, were not reflected in the
financial ratios and other metrics utilized by the examiners. Therefore, taking into

11
  Financial institution regulators and examiners use the Uniform Financial Institutions Rating System
(UFIRS) to evaluate a bank’s performance in six components represented by the CAMELS acronym:
Capital adequacy, Asset quality, Management practices, Earnings performance, Liquidity position, and
Sensitivity to market risk. Each component, and an overall composite score, is assigned a rating of 1
through 5, with 1 having the least regulatory concern and 5 having the greatest concern.


                                                   I-9
consideration that institutions with high ADC concentrations are especially vulnerable to
economic downturns, earlier and greater supervisory attention to the risks associated with
FPB’s aggressive growth may have been prudent.


Supervisory History

Between 1998 and 2008, the FDIC and DBF conducted one visitation and 10 safety and
soundness examinations of FPB. From 1998 through 2006, FPB’s Risk Management
composite rating fluctuated between a “1” and a “2”. As discussed below, based on the
December 2007 DBF examination, FPB was subject to a Memorandum of Understanding
(MOU) which was signed on April 29, 2008. In addition, a PCA Capital Directive was
issued on February 12, 2009. Table 2 summarizes FPB’s examination history during its
last 7 years.

Table 2: FPB’s Examination History from 2003 to 2008
 Examination Start On-Site Supervisory                      Supervisory               Informal or Formal
      Date                Effort                           Ratings (UFIRS)               Action* Taken
        7/14/2003                   FDIC                       122222/2                        None
         1/4/2005                   DBF                        122222/2                        None
        7/10/2006                   FDIC                       111122/1                        None
        12/10/2007                  DBF                        343322/3                   MOU 4/29/08
        6/19/2008               FDIC Visitation               No Ratings                       None
                                                                                         Capital Directive
                                                                                            2/12/2009
        11/4/2008                     FDIC                      554544/5
                                                                                        Institution Closed
                                                                                            7/17/2009
Source: Reports of Examinations: July 14, 2003, January 4, 2005, July 10, 2006, December 10, 2007, and November 4,
2008, FDIC Visitation, June 19, 2008; Supervisory History; Capital Directive, February 12, 2009.
*Informal supervisory actions often take the form of Bank Board Resolutions or MOU. Formal enforcement actions
often take the form of Prompt Corrective Actions or Cease and Desist Orders (C&D), but under severe circumstances
can also take the form of insurance termination proceedings.

As shown in Table 2, one visitation was conducted at FPB in June 2008 in addition to the
required risk management examinations. The purpose of the visitation was to follow up
on concerns related to the previous (2007) examination and the bank’s progress in
addressing the April 2008 MOU provisions.

The FDIC and DBF pursued one informal action and one PCA action to address concerns
identified by the examiners. A brief description of these actions follows.

         MOU. In response to the December 2007 DBF examination, FPB entered into an
          MOU effective April 29, 2008. The MOU addressed ALLL levels, loan portfolio
          review, loan underwriting and credit administration weaknesses, the bank’s ADC
          policy, and capital ratios among other matters.
         PCA Capital Directive. FPB became Undercapitalized for PCA purposes when
          it filed its year end 2008 Consolidated Report of Condition and Income (Call



                                                      I-10
       Report). In response, the FDIC issued a PCA Capital Directive. The Directive
       mandated that management develop a Capital Restoration Plan (CRP) and
       increase the bank’s Tier 1 Leverage and Total Risk-Based Capital (RBC) ratios to
       8 percent and 10 percent, respectively, within 90 days.


Supervisory Response to Key Risks

Through its supervisory efforts, the FDIC identified risks in FPB’s operations and
brought these risks to the attention of the institution’s Board and management. However,
in 2006, just prior to the real estate downturn in the Atlanta metropolitan region, the
FDIC could have placed greater focus on (1) the ADC loan concentration and the
capability of bank management and (2) the adequacy of its risk management practices to
withstand a potential downturn in the local real estate market. In addition, greater
scrutiny could have been placed on loan underwriting and credit administration practices,
given that these were identified as issues in prior examinations (2001 and 2003) and the
competitive environment in which the bank was operating at the time. After the July 2006
examination, the bank entered a period of rapid asset growth which, coupled with the
changing economic environment, highlighted management weaknesses noted in the
December 2007 examination. In fact, according to examiners, most of the loans that led
to the bank failure were extended between the 2006 and 2007 examinations. By the end
of 2007, it was clear that management was unprepared for the reversal in the real estate
market that resulted in the deterioration of the loan portfolio and the depletion of the
bank’s capital base.

To its credit, the FDIC, as a result of the State examination in December 2007, worked
with the bank to put an MOU in place and instituted an on-site visitation program to
follow up on actions taken to address the MOU provisions.


Supervisory Response to ADC Concentration, Loan Underwriting, and
Credit Administration

Examiners identified problems with FPB’s loan concentration, and loan underwriting and
credit administration practices at various points in time during the life of the institution.
Table 3 summarizes the supervisory responses to the ADC concentration, loan
underwriting, and credit administration risks.

Table 3: Supervisory Responses to Key Risks for FPB
                                         ADC
               Asset Quality
                                 Concentration as a
Examination     Component                                               Examiner
                                 Percentage of Tier 1
   Date           Rating                                                Comment
                                Capital plus the ALLL
 4/16/2001           2               149 percent        Examiners noted that the bank should
                                                        continue to closely monitor and manage
                                                        the concentration as a percent of capital
                                                        and total loans. Examiners also noted that
                                                        the volume of loans with credit data and


                                            I-11
                                            ADC
                Asset Quality
                                    Concentration as a
Examination      Component                                                 Examiner
                                    Percentage of Tier 1
   Date            Rating                                                  Comment
                                   Capital plus the ALLL
                                                           collateral documentation exceptions was
                                                           high. The dominant exception was
                                                           inadequate financial and cash flow
                                                           documentation.
 5/10/2002            2                   206 percent      Examiners did not cite any issues relating
                                                           to credit underwriting or administration,
                                                           and there were no material criticisms of
                                                           the ADC concentration.
 7/14/2003            2                   239 percent      The examination noted an increase in
                                                           classifications to 18 percent of capital;
                                                           however, the overall level remained
                                                           manageable. The examination did criticize
                                                           underwriting and administration practices,
                                                           primarily the analysis of financial
                                                           information and preparation of credit
                                                           memos.
  1/4/2005            2                   357 percent      The examination noted that the Board
                                                           received detailed monthly reports
                                                           addressing all relevant risk factors related
                                                           to this type of lending. The examination
                                                           report contained no criticisms of ADC
                                                           concentration risk management practices.
                                                           The examination cited no concerns with
                                                           credit underwriting and administration
                                                           practices.
 7/10/2006            1                   396 percent      During this examination, the ADC
                                                           concentration was deemed to be
                                                           adequately monitored and managed. Credit
                                                           underwriting and loan administration
                                                           practices were considered strong.
 12/10/2007           4                   773 percent      Examiners noted that while a
                                                           concentration in ADC lending at
                                                           773 percent was within the bank’s policy
                                                           limits of 800 percent for total committed
                                                           ADC lending, the level was considered
                                                           excessive given the December 12, 2006,
                                                           Interagency Guidelines. Credit
                                                           underwriting and administration
                                                           weaknesses were noted in several credits.
Source: Reports of Examination for FPB.

The State’s 2005 and the FDIC’s 2006 examinations identified ADC concentrations of
357 percent and 396 percent of Tier 1 Capital plus the ALLL, respectively. However,
these examination reports did not contain any criticisms of the ADC concentration risk
management practices. Examiners concluded that management had a reasonable level of
expertise in ADC lending, had adequately underwritten loans, and was now regularly
monitoring this concentration. The Asset Quality rating was upgraded from a “2” to a “1”
during the 2006 examination.




                                                 I-12
Examiners indicated that the Asset Quality rating of “1” at the 2006 examination was
based on the perceived risk in the loan portfolio, financial condition of the bank, and
strong economy and residential real estate market.12 That said, examiners also noted that
the rating was based largely on the fact that loans were being “paid-as-agreed” and there
were no classified assets. Examiners also indicated that, at the time of the 2006
examination, high concentrations of ADC lending were commonplace in the Atlanta
metropolitan region.13 However, when compared to its peer group, FPB’s asset
concentration levels were substantially higher (see Figure 1). Further, although the
Interagency Guidelines were issued after the July 2006 examination, ADC concentrations
were already high at 396 percent of Tier 1 Capital plus the ALLL – nearly 4 times the
level at which greater scrutiny is warranted.

In retrospect, FPB’s continued rapid growth and high ADC concentration in a changing
local economic environment presented greater risk than what was apparent at the time of
the 2006 examination. FDIC examiners could have taken a stronger posture requiring that
the bank reduce and/or better mitigate the risk associated with its concentration levels.
The bank had been operating in a benign economic environment since its inception,
which resulted in a satisfactory financial condition. However, as it turned out, FPB’s
management was not prepared to face a downturn in the local real estate market due to
inadequate risk management practices.

FPB’s management continued to aggressively grow the bank’s assets after the 2006
examination and into 2007. Such growth, coupled with the rapidly deteriorating
economic conditions, amplified weaknesses in management’s inability to appropriately
cope with the bank’s risks. Specifically, at the time of the 2007 examination, FPB’s ADC
concentration had climbed to 773 percent of Tier 1 Capital plus the ALLL and asset
quality was considered deficient. Although the ADC concentration of 773 percent was
within the bank’s policy limits, the level was considered excessive by examiners given
the asset quality deterioration in the bank’s ADC portfolio.14 In addition, examiners
commented that FPB pursued an industry concentration in ADC lending without fully
mitigating the risk. The downturn in the residential real estate market resulted in FPB’s
problem assets reaching a critical level. To illustrate this point, examiners noted that the
level of past due loans had climbed from 0.05 percent to a high of 4.05 percent from the
2006 examination to the 2007 examination. Examiners also identified numerous
weaknesses in credit underwriting and administration, including:

        Outdated financial information;
        No global cash flow analysis; and
        Lack of documentation in the file to evidence financial capacity of borrowers.




12
   Auditor comments based on interview with DSC Atlanta Assistant Regional Director, Report of
Examination, December 10, 2007, Report of Examination, July 10, 2006, pages 1-2.
13
   Interview with Examiner-in-Charge for the July 10, 2006 Examination.
14
   Report of Examination, December 10, 2007.


                                                 I-13
As a result of examination findings in 2007, the Asset Quality component rating was
significantly downgraded from a “1” to a “4”.15 The DBF and FDIC executed an MOU
on April 29, 2008 with FPB based on the findings of the 2007 examination. Specifically,
the MOU included two provisions in reference to loan concentration issues:

        Within 90 days, the bank was to conduct a review of the composition of its loan
         portfolio, including industry concentrations. The limits set within the loan policy
         were to be reviewed to determine whether or not the limits were appropriate given
         the current risk environment.
        Within 60 days, the bank was to have revised, adopted, and implemented a written
         lending policy to provide effective guidance, monitoring, and control over the
         bank’s ADC lending function. Also, the policy was to have provided for a
         planned reduction in the volume of funded and unfunded ADC loans as a
         percentage of Tier 1 Capital.

In the December 2007 State ROE, examiners referred bank management to the
December 2006 Interagency Guidelines to assist them with formulating a sound risk
management plan. Although the guidance does not specifically limit a bank’s ADC
lending, the guidance does provide the following supervisory criteria for identifying
institutions with potentially significant CRE loan concentrations that may warrant greater
supervisory scrutiny:

        Total reported loans for construction, land development and other land (i.e.,
         ADC) representing 100 percent or more of total capital, or;
        Institutions reporting total CRE loans representing 300 percent or more of total
         capital where the outstanding balance of CRE has increased by 50 percent or
         more during the prior 36 months.

During the examination performed in November 2008, examiners indicated that the bank
was compliant with the MOU provision that recommended that the bank revise, adopt
and implement effective written guidance to monitor and control its ADC lending
function. Still, examiners also concluded that risk management policies and practices in
relation to economic conditions and asset concentrations were not adequate. Management
and the Board needed to review risk identification, limits and mitigation strategies for the
ADC concentration. As a result, it appears that stronger supervisory actions than those
established by the MOU may have been warranted to compel the Board and management
to take even more aggressive steps to mitigate loan concentration risks. This is
particularly relevant considering that market conditions in the Atlanta region and
nationally were deteriorating rapidly and that FPB had a limited window of opportunity
to address weaknesses found during the 2007 examination.16



15
   The Management and the Risk Management Composite ratings were also downgraded from a “1” to a
“3”.
16
   Auditor comment based on Report of Examination, December 10, 2007 and Report of Examination,
November 4, 2008.


                                               I-14
At the November 2008 examination, the FDIC noted that FPB’s asset quality problems
were centered in the ADC loan portfolio. Figure 3 illustrates FPB’s total past due loans
compared to its peer group and indicates a surge in delinquencies starting in 2007.
Adversely classified assets totaled 391 percent of Tier 1 Capital plus the ALLL and
included loan classifications totaling $2.7 million and ORE totaling $15.6 million (after
losses). In addition, loan administration and underwriting deficiencies were noted again
at this examination. Examiners indicated that FPB’s Board and management were
responsible for failing to adequately identify, measure, monitor, and control growing
risks and for not taking the necessary timely actions to improve the bank’s financial
condition. Examiners cited that ineffective limits on the ADC concentration, coupled
with underwriting weaknesses, unnecessarily exposed the bank to unacceptable levels of
risk and associated market risk in the local housing industry. Further, FPB failed to fully
comply with five of the thirteen provisions of the MOU.

The bank’s Asset Quality component rating was downgraded from a “4” to a “5”, and
similarly, the Management component rating was downgraded from a “3” to a “4”, and
the Risk Management composite rating downgraded from a “3” to a “5”. FDIC examiners
proposed instituting a C&D after the examination and concluded that the bank needed to
address unsafe and unsound practices.

Figure 3: FPB’s Percentage of Past Due* Loans Compared to Peer Group

                         25%
   % of Past Due Loans




                         20%

                         15%

                         10%

                         5%

                         0%
                                 2004       2005         2006         2007      2008

                                                   FPB   Peer Group

 Source: UBPR for FPB, December 31, 2008.
 * Includes: Non-Accrual Loans



The FDIC and DBF decided not to pursue a C&D for the following reasons:

                        FPB was originally expected to fail in May and examiners considered it highly
                         unlikely the bank would have had time to address the requirements of a C&D
                         before it failed.
                        As discussed later in this report, subsequent to the 2008 examination, the bank
                         became Undercapitalized for PCA purposes and the FDIC issued a PCA Capital


                                                           I-15
       Directive on February 12, 2009. The directive addressed the most immediate
       concern of both the FDIC and DBF, which was capital.
      The MOU already addressed most issues that would be addressed in a C&D.


Supervisory Response to Board and Management Oversight

Conclusions and rating determinations made by examiners regarding Board and
management oversight prior to 2007 appeared to have been based heavily on the financial
performance of the bank. In the July 2006 FDIC examination, management was upgraded
to a rating of “1” from a “2” in the prior examination, based on the strong financial
condition of the bank. At this time, the ADC concentration stood at 396 percent of Tier 1
Capital plus the ALLL. In the same report, the Risk Management Assessment section
indicated that the loan policy should be expanded to include guidelines addressing
appraisal reviews, purchased and sold loans, and limitations on the maximum volume of
loans relative to assets.

The Risk Management Manual of Examination Policies states that a rating of “1” for the
Management component indicates that “All significant risks are consistently and
effectively identified, measured, monitored and controlled”. The level of loan
concentrations and the exceptions found in the loan policy appear to be in contrast with
the broad definition of a “1” rating. By the December 2007 State examination, when the
Atlanta real estate market had already taken an adverse turn, several management
weaknesses were identified and this component was downgraded to a less than
satisfactory level of “3”. In the November 2008 FDIC ROE, examiners noted that
management’s policies, procedures, and risk mitigating efforts did not appropriately
address the market’s deteriorating conditions. By this time, the viability of the bank was
already in serious jeopardy.

In retrospect, stronger and earlier efforts to persuade the Board and management to
improve risk management practices and diversify lending to reduce loan concentration
levels could have established a more appropriate supervisory tone and prompted the
Board and management to take more timely and adequate actions to address examiner
concerns.


Implementation of PCA

The purpose of PCA is to resolve problems of insured depository institutions at the least
possible long-term cost to the DIF. Part 325 of the FDIC Rules and Regulations
implements the requirements of PCA by establishing a framework of restrictions and
mandatory supervisory actions that are triggered by an institution’s capital levels. Based
on the supervisory actions taken, the FDIC properly implemented applicable PCA
provisions of section 38. However, capital levels turned out to be a lagging indicator of
the institution’s financial well-being. Other factors including earnings, asset quality, and




                                            I-16
management, identified and addressed in earlier examinations, were better indicators that
the bank’s viability was in question.

Table 4 illustrates that FPB was considered Well Capitalized for PCA purposes until the
November 2008 FDIC examination when the institution’s condition had already seriously
deteriorated.

Table 4: Summary of Capitalization Categories for FPB
 Examination as of            Capitalization Category        Informal or Formal Action
      Date                                                               Taken
           3/31/2003               Well Capitalized                      None
           9/30/2004               Well Capitalized                      None
           3/31/2006               Well Capitalized                      None
           9/30/2007               Well Capitalized                MOU 4/29/2008
                                                                   Capital Directive
           9/30/2008               Undercapitalized
                                                                       2/12/2009
                                                                  Institution Closed
               *            Significantly Undercapitalized
                                                                      7/17/2009
Source: Reports of Examination for FPB.
* Based on FDIC PCA Notification, May 26, 2009.

By the December 2007 examination, examiners noted that the capital position was
considered less than satisfactory and that if loans continued to deteriorate, the capital
levels of the bank may not be sufficient to mitigate losses. Further, examiners pointed out
that management should develop a capital plan in the event additional capital was
required. In addition, management was expected to closely monitor the capital levels of
the bank given the weak earnings and deficient asset quality at the time.17 Nevertheless,
for PCA purposes, the bank at that point still remained Well Capitalized.

Subsequent to the 2007 State examination, FPB entered into an MOU. One of the
provisions of the MOU required the following:

           Tier 1 Leverage Capital Ratio of not less than 7 percent;
           Tier 1 Risk-Based Capital ratio of not less than 6 percent; and
           Total Risk-Based Capital ratio of not less than 10 percent.

By the following on-site examination in November 2008, it was noted that FPB’s capital
ratios had declined resulting in a PCA designation of Undercapitalized. Capital no longer
supported the risk profile of the bank. Loan losses, increasing ALLL, and operating
losses had eroded the bank’s capital position. Examiners indicated that continued losses
could further reduce the bank’s designation to Significantly Undercapitalized. A
minimum capital injection of at least $4 million was necessary to temporarily restore the
bank to a PCA designation of Well Capitalized.



17
     Report of Examination, December 10, 2007.


                                                  I-17
On February 12, 2009 the FDIC issued a PCA Capital Directive. The Capital Directive
mandated that FPB management develop a CRP and increase the bank’s Tier 1 Leverage
and Total Risk-Based Capital ratios to 8% and 10%, respectively, within 90 days. A May
2009 PCA Notification issued by the FDIC indicated that as a result of FPB’s failure to
implement the CRP, the bank was considered Significantly Undercapitalized for PCA
purposes. The PCA Notification noted that based on the Call Report, FPB’s key capital
ratios as of March 31, 2009 were as follows: Tier 1 Leverage Ratio: 4.15 percent; Tier 1
Risk-Based Capital Ratio: 5.01 percent; and Total Risk-Based Capital Ratio: 6.26
percent. Although these capital ratios indicated an Undercapitalized PCA Capital
Directive category, the bank was considered to be Significantly Undercapitalized based
upon its inability to successfully implement its CRP dated March 25, 2009.

Under the Capital Directive from February 2009, FPB was already required to comply
with provisions established in FDI Act section 38(f) applicable to Significantly
Undercapitalized institutions, such as the requirement to increase capital levels.
Consequently, no further provisions were established at the time the institution became
Significantly Undercapitalized. Based on the information listed above, the supervisory
actions taken by the FDIC adhered to applicable PCA provisions of section 38.




                                          I-18
                                                                            Appendix 1


Appendices

                  1. Objectives, Scope, and Methodology


Objectives

We performed this performance audit to satisfy the requirements of section 38(k) of the
FDI Act, which provides, in general, that if a deposit insurance fund incurs a material loss
with respect to an insured depository institution, the Inspector General of the appropriate
federal banking agency shall prepare a report to that agency reviewing the agency’s
supervision of the institution. The FDI Act requires that the report be completed within
6 months after it becomes apparent that a material loss has been incurred.

Our audit objectives were to (1) determine the causes of the financial institution’s failure
and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of the
institution, including implementation of the PCA provisions of section 38. We evaluated
whether capital was an adequate indicator of safety and soundness and the FDIC’s
compliance with PCA guidelines.

We conducted this performance audit from September 2009 to January 2010 in
accordance with Generally Accepted Government Auditing Standards (GAGAS). Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained, as described in the Scope and
Methodology section, provides a reasonable basis for our findings and conclusions based
on our audit objectives.


Scope and Methodology

The scope of this audit included an analysis of FPB from April 16, 2001, until its failure
on July 17, 2009. Our review also entailed an evaluation of the regulatory supervision of
the institution over the same period.

To achieve the objectives, we performed the following procedures and utilized the
following techniques:

        Analyzed examination and visitation reports prepared by the FDIC and the DBF
         examiners from April 2001 to July 2009.

        Reviewed the following documentation:




                                            I-19
                                                                              Appendix 1

              Financial institution data and correspondence maintained at the DSC’s
               Atlanta Regional Office and Atlanta Field Office, as provided to KPMG by
               DSC.

              Reports prepared by the Division of Resolutions and Receiverships (DRR)
               and DSC relating to the bank’s closure.

              Pertinent DSC policies and procedures.

        Interviewed the relevant FDIC officials having supervisory responsibilities
         pertaining to FPB, which included DSC examination staff in the Atlanta Region.

        Interviewed appropriate officials from the DBF to discuss the historical
         perspective of the institution, its examinations, and other activities regarding the
         state's supervision of the bank.

        Researched various banking laws and regulations, including Atlanta state laws.


KPMG relied primarily upon the materials provided by the FDIC OIG and DSC,
including information and other data collected during interviews. KPMG did not perform
specific audit procedures to ensure the information and data were complete and accurate.
KPMG is, however, aware that Circular 12000.1, Cooperation with the Office of
Inspector General, dated September 28, 2007, requires that all FDIC employees,
contractors, and subcontractors cooperate with the OIG in order for the OIG to carry out
its statutory mandate. To that end, all employees, contractors, and subcontractors must:

     (1) Provide authorized representatives of the OIG immediate and unrestricted
access to all Corporation, receivership, contractor, and subcontractor personnel, facilities,
equipment, hard copy and electronic records, files, information systems, and other
sources of information when requested during the course of their official duties.

     (2) Provide authorized representatives of the OIG immediate and unrestricted
access to any records or material available to any part of the FDIC.

Interviews were conducted to gain a better understanding of decisions made regarding the
supervisory approach to the institution and to clarify information and conclusions
contained in reports of examination and other relevant supervisory correspondence
between the FDIC and the bank. KPMG relied on the information provided in the
interviews without conducting additional specific audit procedures to test such
information.




                                              I-20
                                                                           Appendix 1

Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance with Laws and Regulations

Consistent with the audit objectives, we did not assess DSC’s overall internal control or
management control structure. We relied on information in DSC systems, reports, ROEs,
and interviews of examiners to understand FPB’s management controls pertaining to
causes of failure and material loss as discussed in the body of this report.

We obtained data from various FDIC systems but determined that information system
controls were not significant to the audit objectives and, therefore, did not evaluate the
effectiveness of information system controls. We relied on our analysis of information
from various sources, including ROEs, correspondence files, and testimonial evidence to
corroborate data obtained from systems that were used to support our audit conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this material loss review, we did not assess the strengths
and weaknesses of DSC’s annual performance plan in meeting the requirements of the
Results Act because such an assessment is not part of the audit objectives. DSC’s
compliance with the Results Act is reviewed in OIG’s program audits of DSC operations.

Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with provisions of PCA and limited tests to determine
compliance with certain aspects of the FDI Act. The results of our tests are discussed,
where appropriate, in this report. Additionally, we assessed the risk of fraud and abuse
related to our objectives in the course of evaluating audit evidence.




                                           I-21
                                                                          Appendix 2



                         2. Glossary of Terms


          Term                                        Definition
Adversely Classified     Assets subject to criticism and/or comment in an examination
Assets                   report. Adversely classified assets are allocated on the basis of risk
                         (lowest to highest) into three categories: Substandard, Doubtful,
                         and Loss.

Allowance for Loan and   Federally insured depository institutions must maintain an ALLL
Lease Losses (ALLL)      that is adequate to absorb the estimated loan losses associated with
                         the loan and lease portfolio (including all binding commitments to
                         lend). To the extent not provided for in a separate liability account,
                         the ALLL should also be sufficient to absorb estimated loan losses
                         associated with off-balance sheet loan instruments such as standby
                         letters of credit.

Call Report              Consolidated Reports of Condition and Income (also known as the
                         Call Reports) are reports that are required to be filed by every
                         national bank, state member bank, and insured nonmember bank
                         pursuant to the Federal Deposit Insurance Act. These reports are
                         used to calculate deposit insurance assessments and monitor the
                         condition, performance, and risk profile of individual banks and
                         the banking industry.


Capital Directive        A capital directive is a final order issued by the FDIC to a State
(Directive)              nonmember bank that fails to maintain capital at or above its
                         minimum capital requirements


Cease and Desist Order   A formal enforcement action issued by financial institution
(C&D)                    regulators to a bank or affiliated party to stop an unsafe or unsound
                         practice or violation. A C&D may be terminated when the bank’s
                         condition has significantly improved and the action is no longer
                         needed or the bank has materially complied with its terms.


Concentration            A concentration is a significantly large volume of economically
                         related assets that an institution has advanced or committed to a
                         certain industry, person, entity, or affiliated group. These assets
                         may, in the aggregate, present a substantial risk to the safety and
                         soundness of the institution.




                                      I-22
                                                                      Appendix 2

         Term                                       Definition
Memorandum of         A Memorandum of Understanding is an informal agreement
Understanding (MOU)   between the institution and the FDIC, which is signed by both
                      parties. The State Authority may also be party to the agreement.
                      MOUs are designed to address and correct identified weaknesses
                      in an institution’s condition.

Prompt Corrective     The purpose of PCA is to resolve the problems of insured
Action (PCA)          depository institutions at the least possible long-term cost to the
                      DIF. Part 325 of the FDIC Rules and Regulations, 12 Code of
                      Federal Regulations, section 325.101, et. seq. implements section
                      38, Prompt Corrective Action, of the FDI Act, 12 United States
                      Code section 1831o, by establishing a framework for taking
                      prompt corrective supervisory actions against insured nonmember
                      banks that are less than adequately capitalized. The following
                      terms are used to describe capital adequacy: Well Capitalized,
                      Adequately Capitalized, Undercapitalized, Significantly
                      Undercapitalized, and Critically Undercapitalized.


Uniform Bank          The UBPR is an analysis of financial institution financial data and
Performance Report    ratios that includes extensive comparisons to peer group
(UBPR)                performance. The report is produced by the Federal Financial
                      Institutions Examination Council for the use of banking
                      supervisors, bankers, and the general public and is produced
                      quarterly from Call Report data submitted by banks.




                                   I-23
                                                                            Appendix 3


                                     3. Acronyms


ADC    Acquisition, Development, and Construction
ALLL   Allowance for Loan and Lease Losses
ASC    Accounting Standard Codification
C&D    Cease and Desist Order
CAMELS Capital, Asset Quality, Management, Earnings, Liquidity, and Sensitivity to Market
       Risk
CRE    Commercial Real Estate
CRP    Capital Restoration Plan
DBF    Georgia Department of Banking and Finance
DIF    Deposit Insurance Fund
DRR    Division of Resolutions and Receiverships
DSC    Division of Supervision and Consumer Protection
FAS    Financial Accounting Standard
FDI    Federal Deposit Insurance
FIL    Financial Institution Letter
FPB    First Piedmont Bank
GAGAS Generally Accepted Government Auditing Standards
MOU    Memorandum of Understanding
OIG    Office of Inspector General
ORE    Other Real Estate
PCA    Prompt Corrective Action
RBC    Risk-Based Capital
ROE    Report of Examination
UBPR   Uniform Bank Performance Report
UFIRS  Uniform Financial Institutions Rating System




                                            I-24
               Part II

OIG Evaluation of Management Response
OIG Evaluation of Management Response
After we issued our draft report, we met with management officials to further discuss our
results. Management provided additional information for our consideration, and we
revised our report to reflect this information, as appropriate. On February 12, 2010, the
Director, Division of Supervision and Consumer Protection (DSC), provided a written
response to the draft report. That response is provided in its entirety on page II-2 of this
report.

DSC reiterated the OIG’s conclusions regarding the causes of FPB’s failure and the
FDIC’s supervision of the bank. DSC stated that it issued Interagency Guidance on CRE
Monitoring in 2006 and a Financial Institution Letter to banks on Managing Commercial
Real Estate Concentrations in a Challenging Environment in 2008 that re-emphasized the
importance of robust credit risk-management practices for institutions with concentrated
CRE exposures and set forth broad supervisory expectations.




                                            II-1
                                   Corporation Comments




Federal Deposit Insurance Corporation
550 17th Street NW, Washington, D.C. 20429-9990               Division of Supervision and Consumer Protection


TO:               Stephen Beard
                  Assistant Inspector General for Material Loss Reviews

                          /Signed/
FROM:             Sandra L. Thompson
                  Director

SUBJECT:          Draft Audit Report Entitled, Material Loss Review of First Piedmont Bank,
                  Winder, GA (Assignment No. 2009-064)

Pursuant to Section 38(k) of the Federal Deposit Insurance act (FDI Act), the Federal Deposit
Insurance Corporation's Office of Inspector General (OIG) conducted a material loss review of
First Piedmont Bank (FPS) which failed on July 17, 2009. This memorandum is the response
of the Division of Supervision and Consumer Protection (DSC) to the OIG's Draft Report
(Report) received on January 22, 2010.

The Report concludes that FPB's failure was due to a high concentration in acquisition,
development and construction (ADC) loans; weaknesses in loan underwriting and credit
administration practices; and poor management and Board of Directors (Board) oversight. The
Report notes that examiners identified the ADC lending concentration early in FPB's history.
The Report also indicates that until 2007 there was a high demand for ADC lending in the
Atlanta area as a result of the growing population and a robust economy, noting it was not until
mid-2007 that the Atlanta real estate market began to show signs of deterioration.

The Report states that, through its supervisory efforts, FDIC identified risks in FPB's operations
and brought these risks to the attention of FPB's Board and management. Key areas of risk
identified by the examiners included ADC loan concentrations, loan underwriting, and credit
administration. The institution's risk profile increased dramatically between the 2006 and 2007
examinations. Following the 2007 examination, the FDIC and Georgia Department of Banking
and Finance (GDBF) collaborated to have FPB's Board and management adopt a Memorandum
of Understanding (MOU), and DSC implemented an on-site visitation program to follow up on
the actions FPB had taken to address the MOU provisions. However, FPB's Board and
management failed to follow the requirements of the MOU and take appropriate corrective
actions and the condition of the institution deteriorated.

DSC issued Interagency Guidance on CRE Monitoring in 2006 and a Financial Institution Letter
to banks on Managing Commercial Real Estate Concentrations in a Challenging Environment in
2008 that re-emphasized the importance of robust credit risk-management practices for
institutions with concentrated CRE exposures and set forth broad supervisory expectations.

Thank you for the opportunity to review and comment on the Report.




                                                  II-2
